<html>
<title> - THE FY20 BUDGET: EXAMINING THE ADMINISTRATION'S POLICY OBJECTIVES FOR A TURBULENT MIDDLE EAST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     THE FY20 BUDGET: EXAMINING THE
     ADMINISTRATION'S POLICY OBJECTIVES FOR A TURBULENT MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 29, 2019

                               __________

                           Serial No. 116-74

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-199PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                      
                       
                       
                    COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                             ------                                
                             

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman
                 
GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland	             BRIAN Mast, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California		     STEVEN WATKINS, Kansas

                 Casey Kustin, Staff Director                
                         
                          
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Schenker, Honorable David, Assistant Secretary, Bureau of Near 
  Eastern Affairs, U.S. Department of State......................     7
Harvey, Honorable Michael T., Assistant Administrator, Bureau for 
  the Middle East, U.S. Agency for International Development.....    13

                                APPENDIX

Hearing Notice...................................................    33
Hearing Minutes..................................................    34
Hearing Attendance...............................................    35

             RESPONSES TO QUESTONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Deutch..........................................    36

 
                     THE FY20 BUDGET: EXAMINING THE
     ADMINISTRATION'S POLICY OBJECTIVES FOR A TURBULENT MIDDLE EAST

                       Tuesday, October 29, 2019

                        House of Representatives

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:34 p.m., in 
room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. All right. This hearing will come to order. 
Welcome, everyone. The subcommittee is meeting today to hear 
testimony on the Trump Administration's budgetary and policy 
priorities in the Middle East for Fiscal Year 2020. We look 
forward to hearing from our witnesses about the FY20 budgets 
for the Department of State's Near Eastern Affairs Bureau as 
well as USAID's Bureau for the Middle East. I thank the 
witnesses for appearing today. I now recognize myself for 
purposes of making an opening statement.
    Thank you, Assistant Secretary Schenker and Assistant 
Administrator Harvey for testifying today. Nearly 3 years into 
the Trump Administration, the United States faces a multitude 
of challenges in the Middle East. While the Administration 
touts its maximum pressure policy, Iran continues to 
destabilize countries from Iraq to Yemen to Lebanon. Despite 
President Trump's bellicose rhetoric, Tehran has been able to 
launch attacks on international shipping and regional States, 
undermining U.S. deterrence and credibility in the progress.
    The Iranian nuclear program is more advanced today than it 
was that President Trump took office, and the international 
community is more divided in confronting it. Iran continues to 
unjustly imprison Americans, including my constituent Bob 
Levinson, and violate the human rights of its own people. Iran 
also continues to support Bashar al-Assad and fuel the conflict 
in Syria, which has led to the deaths of more than 600,000 
people and the displacement of millions both inside Syria and 
in neighboring countries.
    This conflict and the humanitarian crisis it created will 
reshape the Middle East for decades to come, but our policy in 
Syria remains ambiguous at best. President Trump has now twice 
announced the rapid and complete withdrawal of U.S. troops from 
Syria, with little notice given to international allies and 
partners on the ground. This approach has ceded U.S. leverage 
over a future political solution in Syria, placed American 
troops and civilians in danger, undermined our credibility, 
removed pressure on ISIS, and betrayed our Syrian partners who 
fought valiantly in recent years to counter ISIS with American 
support.
    I commend the successful operation this weekend to take out 
ISIS leader al-Baghdadi, but I caution that the removal of one 
individual should not validate our current withdrawal strategy. 
If anything, it should show us the importance of our 
counterterrorism mission and cooperation with partners on the 
ground in Syria.
    The President has also provided a strategic victory to our 
adversaries. Russia has used military force, economic support, 
and weapons sales to become the arbiter of Syria's future and 
to increase its regional influence at the expense of the United 
States. Yemen remains ravaged by civil conflicts, foreign 
intervention, and the world's worst humanitarian crisis. The 
Trump Administration has offered unstinting support to Saudi 
Arabia and the UAE in their military campaign in Yemen, 
ignoring the bipartisan support in Congress for ending U.S. 
military support for coalition operations.
    And while I understand the risk posed by the Houthis and 
Iranian forces, the conflict has led to tens of thousands of 
civilian casualties, shifted focus from al-Qaida in the Arabian 
Peninsula, and dramatically worsened a humanitarian 
catastrophe. The region also faces ongoing challenges. Israel 
confronts threats on its borders from terrorist organizations 
like Hezbollah and Hamas, and peace with the Palestinians 
remains elusive. People in the West Bank seek a prosperous 
future, while Gazans suffer in need of humanitarian aid.
    The dispute splitting the Gulf Cooperation Council is at a 
stalemate. Libya, a state on the doorstep of Europe, is 
fractured and an arena for an expanding proxy war between 
regional powers. However, U.S. policy must not be solely 
reactionary and only respond to the many crises in the Middle 
East. It must also be forward-looking and grasp the many 
opportunities in the region.
    A youth bulge--approximately 45 percent of the Middle East 
is under 25 years old--presents a chance to reset U.S. 
relations with the people of the region in the coming decade. 
Tunisia just completed a successful round of elections as the 
country moves forward on the difficult path of democratic 
development.
    Protesters took to the streets in Algeria on Friday for the 
36th week in a row to demand their government root out 
corruption and better meet the needs of the people. In fact, in 
recent weeks, protests have gripped other countries throughout 
the region including Egypt, Lebanon, and Iraq, and led to the 
resignation of Lebanese Prime Minister Saad Hariri earlier 
today. More than 8 years after millions took to the streets to 
protest corruption and autocracy, these demonstrations indicate 
that too many regional governments remain unaccountable to 
their people and opposed to open civil society, transparency, 
and human rights.
    I am disappointed that the Trump Administration has offered 
an inconsistent message on human rights and democratic values. 
At a time when many are questioning American commitment to the 
region, the Administration has too often turned a blind eye to 
human rights abuses and equivocated in expressing support for 
good governance in the Middle East. The Administration often 
articulates maximalist goals in the Middle East, but has cut 
the resources needed to achieve them.
    For the third straight year, the Trump Administration has 
proposed drastic cuts to our foreign affairs budget. The FY20 
budget requested an estimated $6.5 billion in total bilateral 
assistance to the MENA region, a figure that is 6 percent less 
than the FY19 request and 11 percent less than what Congress 
appropriated in FY19.
    This subcommittee has oversight responsibility over the NEA 
Bureau and Middle East Bureau budgets and I hope this hearing 
today can help us get some better understanding of the 
Administration's strategy and a clearer articulation of U.S. 
policy in the Middle East and how we are allocating resources 
to accomplish our objectives in the region. I am grateful to 
the witnesses for appearing, and with that I will turn it over 
to Ranking Member Wilson for his opening statement.
    Mr. Wilson. Thank you, Chairman Ted Deutch, for calling 
this important hearing, examining the Trump Administration's 
policy objectives for the turbulent Middle East. We appreciate 
our distinguished witnesses, Assistant Secretary David Schenker 
and Assistant Administrator Michael Harvey, for their 
extraordinary service and for their testimony before the 
committee today.
    Formulating U.S. policy is not easy, but letting alone to 
crafting a policy of so many complexities in a region like the 
Middle East with centuries of conflict, but our two witnesses 
surely have their jobs cut out for them and we thank them for 
their positive efforts. Indeed, the Middle East has vexed both 
Republican and Democrat administrations alike.
    But despite the difficulties, the United States has 
remained engaged in the region. We have been invested in the 
people and the potential of the Middle East. Although we may 
have disagreed across the aisle about specific policies, we can 
all agree that U.S. engagement and commitment to the Middle 
East is necessary. It is definitely preferred to a Middle East 
in which rogue regimes like Russia, Iran, or China are power 
brokers.
    To be fair, the Trump Administration has presided over many 
important successes in the Middle East. Today's hearing comes 
just days after the U.S. Special Forces successfully conducted 
a raid in northwest Syria, which led to the deserved death of 
the leader of ISIS, the murderous Abu Bakr al-Baghdadi. But to 
ensure that this murderous ideology of ISIS does not resurrect 
from the ashes of Syria and Iran will require an enduring 
American commitment. Not just to the global war against 
terrorism, but to the stability of the Middle East itself.
    I also commend this administration for spearheading the 
maximum pressure campaign against Iran. This is the right 
approach against the world's foremost State sponsor of 
terrorism, but I am deeply concerned about the current approach 
is simply not enough. In the past year alone, Iran has cemented 
its stranglehold over Iraq and Lebanon and significantly 
increased the amount of territory it controls in Syria.
    It appears that there is only so much that can be 
accomplished through economic sanctions. How are we working to 
push back the increased Iranian influence in the region in ways 
other than sanctions? Consistently over the decades, the 
Iranians have remained committed to exporting their evil 
ideology throughout the Middle East, fostering terrorism, 
sectarianism, and violence everywhere. Meanwhile, the United 
States has sought to support democracy in the region, hemming 
and hawing about its role in the region.
    There are plenty of reasons for the U.S. to renew its 
resolve and commitment to the region. The Middle East today is 
teeming with potential. In the past year alone, we have seen 
the citizens of Sudan, Egypt, Algeria, and most recently Iraq 
and Lebanon, take to the streets and give expression to their 
democratic aspirations. I am even hopeful that the spark of 
liberty will 1 day ignite a democratic movement in Iran as 
well, which has a historic background reflective of the Persian 
culture.
    Just last week, the world as we inspired as the runner-up 
in Tunisia's Presidential elections met with the country's 
newly elected president, a sign of strengthened faith in 
Tunisia's democratic institutions. I was fortunate to travel to 
Tunisia last month with the Helsinki Commission and I was 
inspired to see this fledgling democracy in action.
    The U.S. must not concede influence to those who counter 
the spirit of democracy and freedom in the Middle East. There 
is simply no substitute for U.S. leadership in the region. I 
look forward to hearing from the distinguished witnesses today 
and I yield back my time.
    Mr. Deutch. Thank you, Ranking Member Wilson. It is now my 
pleasure to introduce the witnesses. And before I do, without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length limitation in the rules.
    Assistant Secretary David Schenker is the Assistant 
Secretary of Near Eastern Affairs at the U.S. Department of 
State. He was sworn in on June 14, 2019. Prior to joining the 
Department of State, Assistant Secretary Schenker was director 
of the Program on Arab Politics at the Washington Institute for 
Near East Policy. He previously served in the Office of the 
Secretary of Defense as Levant country director, and he was 
awarded the Office of the Secretary of Defense Medal for 
Exceptional Civilian Service in 2005. Before joining the 
government in 2002, he was a research fellow at the Washington 
Institute and a project coordinator of large, centrally-funded 
USAID projects in Egypt and in Jordan.
    Assistant Administrator Harvey, Michael Harvey, was 
appointed Assistant Administrator of USAID's Bureau in January 
2019. He comes to the position after serving more than 30 years 
as a Foreign Service officer for USAID, with multiple overseas 
assignments including Mission Director in Nigeria, Mission 
Director in the West Bank and Gaza, Deputy Mission Director in 
Iraq and Jordan. He most recently served as a faculty member of 
the National War College in Washington, DC, and chaired USAID's 
Task Force to Defeat the Islamic State in Iraq and Syria as 
Assistant to the Administrator. Assistant Administrator Harvey 
has received numerous awards from the Department of State and 
USAID for his exceptional service.
    Thank you both for being here today. Let me remind the 
witnesses to please limit your testimony to 5 minutes. And, 
without objection, your prepared written statements in their 
entirety will be made part of the hearing record. Again, thank 
you so much for being here today.
    Assistant Secretary Schenker, you are recognized.

  STATEMENT OF DAVID SCHENKER, ASSISTANT SECRETARY, BUREAU OF 
         NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Secretary Schenker. Chairman Deutch, Ranking Member Wilson, 
thank you for inviting us here today to discuss the 
President's----
    Mr. Deutch. Can you pull the microphone a little closer?
    Secretary Schenker. Yes. Is that better?
    Mr. Deutch. Yes.
    Secretary Schenker. OK. Thank you for inviting us here to 
discuss the President's FY20 budget request. Stability is the 
Administration's imperative in the Middle East and North Africa 
to protect the American people and our interests abroad. That 
core objective, which benefits U.S. interests as well as the 
region's, drives our diplomatic and foreign assistance.
    The President's FY20 foreign assistance budget request of 
$6.6 billion for the region will support national security 
priorities to counter Iran's malign influence, ensure the 
enduring defeat of ISIS, support persecuted religious and 
ethnic minorities throughout the region, and maintain support 
to key allies and critical partnerships across the region. The 
request also recognizes that the United States cannot alone 
bear sole responsibility for addressing challenges in the 
region.
    The President's request places an emphasis on burden-
sharing, leveraging the U.S. taxpayer dollars against 
investments from our regional partners and the international 
community. The Administration's Iran strategy focuses on 
neutralizing Tehran's destabilizing influence and constraining 
its malign activities, particularly its support for terrorism 
and militants. Strong diplomatic, economic, and security 
measures must be bolstered by U.S. assistance programs that 
support key partners and seek to deny access and influence to 
Iran and its proxies.
    Resource requested in this budget will counter Iran's 
malign influence in Lebanon, Iraq, and Yemen by working through 
our partners, our local partners. The territorial defeat of 
ISIS in Iraq and Syria is a major milestone that should not be 
underestimated. The FY20 request reflects significant progress 
in encouraging our allies to support stabilization activities 
in Syria. We also continue to hold ISIS accountable for the 
atrocities it committed including genocide against Iraq's 
persecuted communities.
    Ensuring the survival of Iraq's minority religious and 
ethnic communities is a vital interest of the United States and 
stands in direct opposition to the extremist vision ISIS sought 
to impose on Iraq. U.S. assistance will enable Iraq to become a 
constructive, stabilizing influence in the region. The FY20 
request of $166 million supports U.S. assistance that promotes 
further integration of Iraq into the global economy, which in 
turn will create opportunities for U.S. businesses and jobs 
here at home.
    As we have seen over the last few weeks, stabilization in 
Syria will require more resources than one country alone should 
provide. We expect our allies and partners to increase 
contributions to stabilize Syria and ensure that ISIS cannot 
return. In Yemen, we are working with international donors to 
address critical humanitarian needs that will help create a 
foundation for durable peace. In addition, the FY20 budget 
requests $41 million in economic assistance to support the 
Yemeni people and their institutions.
    The FY20 budget reflects our commitment to comprehensive 
Arab-Israeli peace, which hinges on a safe and secure Israel. 
Consistent with the 2019 through 2028 MOU between the United 
States and Israel, the President's budget requests 3.3 billion 
of FMF for Israel, the single largest foreign assistance 
investment in the region. The Administration continues to work 
toward a comprehensive and lasting peace between Israel and 
Palestinians.
    In support of these efforts, the President's FY20 request 
includes 35 million in security assistance for the Palestinian 
Authority security forces, and includes funding in the 
Diplomatic Progress Fund that could also be used for assistance 
for the West Bank and Gaza. Encouraging deeper partnerships 
between Israel and its neighbors will reduce Israel's 
international isolation and improve regional security.
    The FY20 request includes $1.275 billion for Jordan, 
consistent with the 2018 bilateral MOU. I would like to thank 
the subcommittee for sharing the Administration's staunch 
support for the U.S.--Jordan relationship. The U.S. assistance 
has helped Jordan weather the impact of the Syrian crisis and 
supports the longstanding U.S.-Jordanian relationship.
    Egypt, the region's most populous country, is also 
important to U.S. interests. The FY20 request includes 1.3 
billion in FMF to support the Egyptian Armed Forces' capacity 
to counter terrorism in the Sinai and secure the country's land 
and maritime borders, including the Suez Canal.
    In closing, the President's FY20 request contributes to 
achievement of our national priorities in the region and 
supports investments to advance our interests. Thank you for 
your enduring support to our diplomacy in the region and our 
foreign service investments, foreign assistance investments. 
Our ability to respond quickly to needs in the region and 
allocate funding effectively requires your continued support. I 
look forward to answering your questions. Thank you.
    [The prepared statement of Secretary Schenker follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	
    
    Mr. Deutch. Thank you, Assistant Secretary Schenker.
    Assistant Administrator Harvey, you are recognized for 5 
minutes.

 STATEMENT OF MICHAEL HARVEY, ASSISTANT ADMINISTRATOR, BUREAU 
 FOR THE MIDDLE EAST, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Harvey. Thank you. Chairman Deutch, Ranking Member 
Wilson, and distinguished members of the subcommittee, thank 
you for the opportunity to testify on the important role of the 
development and humanitarian assistance programming in the 
advancing U.S. interests in the Middle East and North Africa. 
It is an honor to be here with Assistant Secretary Schenker and 
to be representing Administrator Green and the professionals of 
USAID.
    USAID recognizes that most of the nations in this region 
are actually middle-income countries, countries with young 
populations whose energy, education, and inspiration can be 
tapped to help speed their countries' journeys to self-
reliance. We believe well-targeted investments by the United 
States and other donors can play a critical role in helping 
these countries lock in democratic advances where they have 
occurred and drive job-creating, economic growth through 
modern, free-market economies.
    In line with administration policies, USAID focuses its 
programming to support our friends and allies and steadily work 
toward graduating countries from foreign assistance. Helping 
partners build self-reliance is key to the broader U.S. effort 
to counter malign influences coming from outside, while 
demonstrating American values in the context of renewed great 
power competition. In Iraq, we continue to support the 
government's initiatives to strengthen fiscal management and 
improve service delivery. Progress in these areas will 
strengthen Iraqi sovereignty and provide an effective counter 
to Iranian influences within the society.
    Another key area of focus is our support for religious and 
ethnic minorities in Northern Iraq. Building on the $400 
million investment we have made thus far to help communities 
recover from the atrocities of ISIS, the Administration is 
requesting $150 million to support vulnerable, religious, and 
ethnic minority groups globally. This investment will help 
ensure these communities are able to remain in their historical 
homelands and to thrive as crucial components of their larger 
societies.
    I want to note that as part of our effort to expand USAID's 
partner base as a global initiative, earlier this month 
Administrator Green announced six direct awards to local Iraqi 
organizations who are working to implement our programming with 
ethnic and religious communities who have been targeted for 
genocide. We point with pride to our pilot early grade reading 
and high school programs targeting science, technology, 
engineering, and math programs in Egypt. The Government of 
Egypt has now expanded these programs across the country, 
demonstrating the capacity to take on these successes and 
address and forward the country's development effort.
    But let's be clear, job creation across the region is a key 
concern. Our work with the private sector is yielding results. 
We recently handed diplomas and employment contracts to the 
first group of logistics students who graduated in the Suez 
Corridor logistics training program and we are doing similar 
job-matching projects across the region, helping both the firms 
and the young people they will employ.
    In Tunisia, with the support of Congress and in particular 
this subcommittee, the United States has played an important 
role since 2011 in solidifying the country's democratic 
transition. During my recent visit there, I was very honored to 
officially reopen the USAID Tunisia office as a full mission, 
and on that same trip to sign our first 5-year bilateral 
agreement with Tunisia. While there, I traveled to Kairouan, in 
Tunisia's interior, where I had the pleasure of visiting USAID 
businesses that are now growing and with young people who are 
actively participating with their local governments in setting 
the path forward for their communities.
    And before I close, a word on burden-sharing just to echo 
the Secretary's remarks. The Administration's foreign 
assistance request prioritizes investments matched by host 
government commitments and encourages international donors to 
share the burden of development. Our work in Syria is an 
example. USAID programs have restored water and electricity to 
hundreds of thousands of Syrians in areas liberated from ISIS. 
We helped revitalize agriculture, rehabilitate canals, and all 
of these activities were funded by our coalition partners.
    We will continue to put U.S. interests first and to be full 
partners in advancing U.S. national interests in this region. 
With the support of Congress and through the strategic 
efficient use of resources, we will continue to present the 
best of the American people to the people of the Middle East 
and North Africa. Thank you, sir, and I look forward to your 
questions.
    [The prepared statement of Mr. Harvey follows:]

    [GRAPHIC] [TIFF OMITTED] T8199.017
    
    [GRAPHIC] [TIFF OMITTED] T8199.018
    
    [GRAPHIC] [TIFF OMITTED] T8199.019
    
    [GRAPHIC] [TIFF OMITTED] T8199.020
    
    [GRAPHIC] [TIFF OMITTED] T8199.021
    
    Mr. Deutch. Thank you very much. Thanks to both of you 
again for being here, and sincere thanks for your work in 
service to the country advancing American interests and 
admirably representing American values throughout the region. 
We will now begin 5-minute questioning. I will begin followed 
by the ranking member and then we will alternate between the 
parties.
    Secretary Schenker, last week the Iranian Foreign Ministry 
reportedly sent to the United States a list of people it is 
demanding in a proposed prisoner swap. The regime also made 
another proposal for a prisoner exchange back in April. Could 
you speak to the Administration's view of Iran's recent 
proposal and tell us whether the Administration would engage in 
a prisoner exchange with Iran or does it reject the idea on 
principle?
    Secretary Schenker. Thank you for the question, 
Congressman. The United States and the Administration, a 
priority is to get back our Americans held unjustly in Iran, 
basically hostages over there. This is not a prisoner exchange. 
We are talking about exchanging people who have been kidnapped, 
Americans who are in Iran versus Iranian prisoners, people who 
have done illegal things here like try and, for example, kill 
the Saudi Ambassador in Georgetown through an Iranian plot.
    That said, it is a priority to get our people back and we 
are looking into all sorts of opportunities if they should 
present themselves. But I cannot get into details on that.
    Mr. Deutch. Now, can you comment on these reports of this 
proposal?
    Secretary Schenker. I cannot.
    Mr. Deutch. Can you tell us whether there are any talks 
underway with Iran to secure the release of Americans and U.S. 
legal permanent residents held hostage?
    Secretary Schenker. Yes, I am not going to get into those 
details here. What I would say that it is a priority for us to 
get our people back, but there has been a history, actually, of 
these types of offers and Iran generally leverages them. And 
when you pay for this type of behavior and when you pay for 
kidnapping you generally get more.
    Mr. Deutch. To both of you, let me ask about the 
Administration's freezing of assistance to West Bank Gaza in 
August 2018. If Congress acts to remove the constraints imposed 
by the Anti-Terrorism Clarification Act, should the United 
States consider resuming certain types of aid to Palestinians 
and, if so, which types and under which conditions?
    Secretary Schenker. Well, let me start by saying that the 
Administration supports the victims of terrorism. This is an 
important piece of legislation.
    Mr. Deutch. Assistant Secretary, does the Administration 
support the so-called active fix?
    Secretary Schenker. We are willing to engage with Congress 
on every level to fix that.
    Mr. Deutch. Assistant Administrator Harvey, can you answer 
the question about whether aid should and, if so, which type of 
aid should flow again assuming the active fix addresses that 
issue?
    Mr. Harvey. Well, I will let the Assistant Secretary 
address the issue of whether there should be an active fix. 
That is a broader conversation. If assistance were to resume, 
if the political decision were made that the circumstances 
would justify that, we would take a look very closely with our 
Palestinian partners to determine where to start. I would not 
want to prejudge it now, but historically water and wastewater 
have been very high priorities for both the Israel neighbors 
and the Palestinians themselves, and I am sure that would be at 
least one place where we would start.
    Mr. Deutch. OK, so Assistant Secretary Schenker, let me get 
back to you. So assuming that--thank you for your offer to work 
with us. Assuming that an active fix is achieved, should aid 
start to flow? Would the Administration recognize the benefits 
of any type of aid flowing to West Bank and Gaza?
    Secretary Schenker. I think that would be something that 
would have to come after the rollout of the peace plan, but I 
cannot really comment on whether----
    Mr. Deutch. And why is that?
    Secretary Schenker. Well, I think that there is this 
enormous aid package that awaits the Palestinians that 
underpins this, the peace proposal.
    Mr. Deutch. So, let--Assistant Secretary, let's talk about 
that. Do you have--can you tell us what role your desk has 
played or that you personally have played in helping to draft 
this peace process?
    Secretary Schenker. None.
    Mr. Deutch. But you are aware of what is in it?
    Secretary Schenker. No. I have seen public statements from 
Special Advisor Kushner about this, the talk about raising 
money to underwrite that.
    Mr. Deutch. OK, then let me just focus on the one issue of 
U.S. security assistance. Help me understand why we should wait 
for a peace proposal that may come soon or may never come at 
all to resume the funding of the security coordinator that 
helps to protect Palestinians and Israelis.
    Secretary Schenker. Yes. No, that is a great question.
    Mr. Deutch. Thanks.
    Secretary Schenker. We would love to spend that right now. 
We have allocated $35 million. We have the security coordinator 
out there. We have it fully staffed. We are underwriting that. 
We would like to spend this 35 million to do the train and 
equip; we are just being held back by the ATCA.
    Mr. Deutch. And, finally, all of----
    Secretary Schenker. But that is good to go, that 35 
million.
    Mr. Deutch. And any other projects, are there any other 
projects since--my understanding, Assistant Administrator 
Harvey, is operations have essentially wound down in West Bank 
and Gaza as a result of both the combination of ATCA and the 
Administration's decision to withhold all funds. So are--can 
you prioritize where funds would be spent?
    Secretary Schenker. I do not have a list right now, but I 
can get back to you on that.
    Mr. Deutch. I would appreciate----
    Secretary Schenker. I would think, by the way I would think 
that the wastewater management would be, as Mike Harvey said, 
would be a leading factor of public health.
    Mr. Deutch. OK, I appreciate that.
    Mr. Wilson, you are recognized.
    Mr. Wilson. Thank you, Mr. Chairman. Again, I thank both of 
you for being here. Thank you for your service. And both of 
you, I know, make a difference on behalf of freedom and 
democracy in the world.
    Assistant Secretary Schenker, what is the Near Eastern 
Affairs Bureau of the State Department doing to counter Iranian 
influence in the region?
    Secretary Schenker. Well, first of all, we are implementing 
crushing sanctions on the Iranians. This, as a result, denied 
some $50 billion in oil revenue and is likely going to result 
in a constriction of their economy by double digits by the end 
of 2019. This economic pressure provides them with less money 
with which to fund their regional proxies, terrorist 
organizations like Hezbollah which are facing increased 
pressure because of the lack of funds available to them. That 
is on one side.
    We are working with our partners to multilaterally 
constrain Iran's malign behavior. This is building coalitions 
in the region whether through the international maritime 
security construct, also known as Operation Sentinel, and also 
calling out Iran by name, something the E3 did to hold Iran 
responsible for what it did in Aramco a few weeks back. That is 
sort of unprecedented.
    Likewise, we are exposing Iran, the Iranian regime's 
brutality and governance problems. We are working through local 
partners. We are strengthening and financially backing the 
Lebanese armed forces which someday could serve as a 
counterbalance to some of Iran's pernicious activities in 
Lebanon. We are pressing our Saudi allies and, actually, with 
some prospect of success to get a peace agreement in Yemen 
which would roll back Houthi, the pernicious Houthi influence.
    Mr. Wilson. Well, we appreciate each of your initiatives. 
And can either of you here today guarantee to the subcommittee 
that no U.S. taxpayers' funds are sent to the Iraqi Government 
which, including the Iraqi Federal Police, which could be 
disbursed to the Iranian-backed militias operating in the 
country?
    Secretary Schenker. I believe that is the case. We are not 
providing any FMF to Iraq this year, but I will have to check 
on the other funds. I believe that they are not funding the 
Hashtashabi directly.
    Mr. Wilson. Thank you.
    And then, Assistant Secretary, what is your assessment of 
the relationship between the U.N. operations within Syria and 
the Assad regime in Damascus? Would you say the Assad regime 
benefits from U.S. programming in Syria?
    Secretary Schenker. Well, if I can punt to Mike Harvey on 
that my understanding is no, that it does not benefit the Assad 
regime.
    Mr. Harvey. Congressman, you are raising a very serious 
issue that concerns us greatly. As you know, the one place 
that--the one activity that we do have in Assad-controlled 
areas is our humanitarian assistance program that is 
implemented almost exclusively through U.N. agencies with a few 
exceptions and the issue of keeping control over resources and 
ensuring integrity of that program is a constant challenge. But 
it is something we work very closely with our U.N. partners on, 
we watch very closely, and it is--please do keep the attention 
on it as we will as well.
    Mr. Wilson. And I am grateful that we have bipartisan 
legislation on this point. And I know it is not covered very 
often, but actually people of both parties can work together 
substantially, particularly in the Middle East.
    And then, Secretary Schenker, are there any U.S. citizens 
currently held or detained by the Saudi Government and what 
efforts is the Administration making for their release?
    Secretary Schenker. Thank you. This is an issue of concern. 
There is Walid Fitaihi, who is a dual national, who is being 
held by the Saudis. We have been engaging with the Saudi 
Government continuously about the case that Mr. Fitaihi had 
been held for some 2 years without charge. And recently he was 
charged and released and they are going through a trial. We 
view that as a positive development and hopefully that trial 
will be over soon and then Mr. Fitaihi will be exonerated and 
be able to come home.
    Mr. Wilson. And thank you for following through on that and 
I yield back my time.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Allred, you are recognized.
    Mr. Allred. Thank you, Mr. Chairman. And I want to thank 
our witnesses for your service to our country. I am trying 
though to discern this Administration's policy in the Middle 
East.
    On this subcommittee we have heard testimony that has been 
widely ranging and I think been conflicting as well. The 
President says he wants to support Israel, but I think he has 
taken many steps that have empowered Iran. The President says 
that he wants to destroy ISIS, but we have handed them a 
lifeline in Syria with our actions. And, Mr. Schenker, you have 
talked about how this budget is intended to stabilize the 
region while you are also calling for large cuts to that 
budget.
    And so I am trying to understand what our policy is in the 
Middle East and I want to begin with these cuts to foreign aid 
and to the priorities that you have laid out that many of them 
I agree with, and the justification has been to increase 
``burden-sharing'' across international partners. Do you 
believe that this is actually going to lead to our allies 
contributing more or are we just giving Russia, Iran, and China 
a bigger opening to increase their influence in the region?
    Secretary Schenker. Thank you, Congressman. No, I believe 
that actually our partners have stepped up. I think the best 
example of that would be Syria, where the President, the 
Administration zeroed out the budget last year of $300 million 
for humanitarian assistance and we raised among our partners 
325 million, including 180 million from Saudi Arabia and the 
United Arab Emirates. They stepped up and they have stepped up 
again and made similar commitments for this year.
    So I think, you know, across the board we find our allies--
--
    Mr. Allred. And do you find these commitments to be 
sustainable? I am wondering because we have a national security 
interest in this region. We do not use foreign aid out of the 
goodness of our hearts in all cases, we use it because it 
stabilizes countries. It allows us not to have to commit our 
brave men and women to conflicts abroad. We have a national 
security interest in it. If we are shaking down our allies and 
getting them to step in while we are not going to pay, then 
maybe in the short term that is something that we can do. But I 
do not see that as a sustainable Middle East policy for the 
United States.
    Secretary Schenker. Sir, I understand your concern. So far 
we have been successful in raising funds from our allies. I 
think that we have to go every day and make the case to them 
about why it is not only in our interest but it is in their 
interest. Certainly, Saudi Arabia and the Emirates have stepped 
up on Syria, but, you know, across the board they see things 
and share in many ways the same threat perception in the region 
and are willing to back our efforts.
    Mr. Allred. Yes. Let's talk about Syria and let's talk 
about how this Turkish incursion impacts this budget request. 
Is this reflective, this budget request reflective of these 
current events or is this something that was formulated before 
these events?
    Secretary Schenker. The budget was formulated before the 
Turkish invasion.
    Mr. Allred. And so how is this invasion going to impact 
this request and your plans in the region?
    Secretary Schenker. Yes. Well, that is a good question. We 
have in the budget quite a bit of flexibility. Not only the 
President had said immediately after the invasion that we would 
provide $50 million plus another 4.5 million to support the 
White Helmets and 50 million for humanitarian assistance, we 
have also obligated funds, if necessary, if there is a mass 
refugee flow of Syrian Kurds or Syrians into Iraqi Kurdish 
area.
    And we have flexibility through the Relief and Recovery 
Fund, which has $145 million in it, and through the Diplomatic 
Progress Fund.
    Mr. Allred. OK. OK, so I understand, you know, we want to 
be, if we are going to appropriate, we need to be part of the 
discussion about how this is going forward. That is what I am 
trying to get to. So I see you have some plans, but, Assistant 
Administrator Harvey, if you could talk about what USAID's role 
will be in this potential refugee crisis that we are seeing 
unfolding in northern Syria.
    Mr. Harvey. Well, when we are dealing with the issue of 
refugees we will be working very closely with our State 
Department colleagues in the Refugee Bureau. We have been 
supporting the humanitarian assistance program within Syria 
which includes both people who are in their homes but also 
people who have been displaced by the conflict. We have about 
90,000 people displaced from the recent Kurdish Turkish actions 
whom we will be supporting through the ongoing and existing 
humanitarian assistance program.
    For the most part, we have access to them and our partners 
are implementing programs remarkably. If there is a--we have 
about 12,000 refugees who have crossed into Iraq. The systems 
are in place and the resources are in place to deal with that 
population. We, actually, are using a planning figure of about 
50,000. If we are lucky, we will not get anywhere near that if 
the cease-fire holds and Turkish operations stay where they 
are.
    My worry is less of dealing with the immediate humanitarian 
situation as it is reestablishing political stability in that 
area and that is going to be a serious challenge for all of us.
    Mr. Allred. I agree. And that is why I disagree with the 
budget request. We will formulate what we think is necessary as 
we did in FY19. And thank you for your time.
    Mr. Harvey. OK. Thank you, Congressman.
    Mr. Allred. I yield.
    Mr. Deutch. Thank you, Mr. Allred.
    Mr. Kinzinger, you are recognized.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    Thank you both for being here. Specifically, on USAID, I 
want to say you, I do not think you guys get enough credit. And 
just generally with State Department you guys do not get enough 
credit, because when you alleviate a conflict, obviously, you 
do not know that it has been alleviated until we have, when it 
is unsuccessful. So I want to thank you and your folks for all 
the good work.
    And, you know, specifically, I think it is important to try 
to make sure we are spending taxpayer resources effectively and 
efficiently in a targeted way. I think we should not cut those 
resources simply to cut them. We should make sure they are 
efficient. But I also, you know, it is important to make sure 
when we do that, we are following the President's priorities 
even if we disagree. And that is, you know, where we come into 
play especially in an area like this.
    But especially I want to commend, obviously, the people who 
took out al-Baghdadi this weekend. It was a great thing. It is 
not the end of the war on ISIS, this is a generational fight. 
This is going to go on for a long time and I think we have to 
accept and understand that. That is where you guys come in 
extremely importantly as well, making sure that that next 
generation is not radicalized. And that not only are they not 
radicalized that they actually push back against 
radicalization. But, you know, the more leaders we kill, the 
dumber they get. It is like in Iraq when we did that during the 
surge. You just, you take them out and you accelerate the 
number you are taking out and pretty soon they run out of 
people to lead and it capitulates.
    So I wanted, obviously, I have expressed a lot of concerns, 
generally, with Syria's policy, but I will leave those for now, 
but I do want to turn to the regime who I think the corruption 
was key to Baghdadi's caliphate and there is a whole lot on the 
inception of ISIS and what Bashar al-Assad did. But I think now 
it seems all but certain that Assad will consolidate much 
control over the country.
    Mr. Harvey, you mentioned about, you know, rebuilding and 
USAID projects within Assad-controlled territory. I want to 
echo what my colleague Mr. Wilson said. We do not want taxpayer 
dollars going to prop up Assad. And so you can add me to that 
list and I know you guys are with me on that too, so. But as 
the founder of the Syria Caucus, I am going to continue to urge 
my colleagues to hold those responsible for war crimes in Syria 
accountable.
    So, Mr. Schenker, if President Trump were to sign--I think 
he has said he is willing to do it. We have one Senate hold-
out, but if he signs into law the Caesar Syria Civilian 
Protection Act of 2019, what kind of impact would that have on 
the Assad regime and their supporters?
    Secretary Schenker. Thank you and I share with you the 
pleasure at the killing of Baghdadi. This was----
    Mr. Kinzinger. It is worth celebrating, for sure.
    Secretary Schenker. Yes. No, it is a great thing, but there 
is no knockout blow. So, I think that it is important that we 
recognize what Assad has done. We are spending money in funding 
projects to document the mass atrocities. We are working on 
recordkeeping and underwriting some of that. This is a regime 
that is beyond the pale.
    And we are focused narrowly, remain to focus narrowly on 
three things in Syria, you know, preventing the resurgence the 
ISIS. We are working on preventing, you know, Iranian influence 
in the country and rolling that back and also a political 
future through the implementation of 2254. And this is the 
issue about Caesar. This is a regime that cannot be allowed to 
persist as-is, the people have to have a say in the direction 
of their country. Refugees were not ancillary to this conflict. 
Assad ethnically cleansed his country of Sunni Muslims. He 
wanted to get rid of them. So the Caesar Act, I think, is very 
important in that regard in holding to account.
    Mr. Kinzinger. And I think another point on that is, look, 
it is going to be out of those refugee camps that Assad created 
where you get radicalization because people are hopeless, 
uneducated in many cases, you know, and it is easy to blame 
whoever, and that is where you find radicalization so 
countering that is going to be important.
    And can you also address, you know, with Putin obviously 
standing up the Assad regime, how are you guys working to 
counter their malign influence in the region?
    Secretary Schenker. The Iranians are--I am sorry. The 
Syrians are--the Russians are playing a pernicious role across 
the region. It is not just in Syria. It is Libya and elsewhere. 
We are working on a number of strategies. We are trying to 
contain them by working with our allies. We are certainly 
hammering our allies with warnings about CAATSA sanctions and 
others, but also letting them know, I think having a frank 
dialog, about what Russia does when they are on the ground.
    Mr. Kinzinger. Yes. And I think--I am out of time and I 
appreciate your service, but I think it is important to--it is 
a lesson when they, you know, basically showed up in Syria in 
2012 or 2013. It is a lesson, because we see them in Venezuela 
and we will see them elsewhere. Stop them early. Prevent them 
from coming in. Thank you both for your service. Mr. Chairman, 
I yield back.
    Mr. Deutch. I thank you, Mr. Kinzinger.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you. Thank you, Mr. Chairman.
    Assistant Secretary Schenker, I am going to start off by 
just reading the lead of a story in the Wall Street Journal 
from yesterday about Egypt and about one young woman in 
particular, Esraa Abdel Fattah, who is a political activist in 
that country.
    The lead of the story is, Egyptian security officers 
grabbed her from her car in the country's capital on October 
12th and blindfolded her, took her to a secure facility, two 
lawyers who visited her in prison said she was slapped, beaten 
on her arms and back, threatened with electrocution as officers 
demanded the password to her mobile phone. When she refused, 
the officers bound her hands and legs, choked her with her own 
jacket, forcibly used her fingers to unlock the phone.
    And you know as well as I do, I know your experience and 
you know mine, that this is a routine story in Egypt and things 
have gotten worse in the last month. More than 4,000 people 
detained since protests seeking the removal of President Sisi 
started up, the largest, I think, wave of arrests that the 
country has seen since he came to power. And, you know, I do 
not think I need to ask you if this is wrong because I am sure 
you agree that it is, but I will ask this.
    Since our policy toward Egypt is based or allegedly based 
on advancing our security interests, does this kind of 
repression which is escalating now help or hurt legitimate 
efforts to fight extremism or terrorism in the country?
    Secretary Schenker. Thank you, Congressman. I am familiar 
with that story. I know Esraa. I met her several times. I think 
it is outrageous. You should know that I had the Egyptian 
ambassador in my office last week to talk about Esraa. This 
matters greatly to the Administration. Egypt has a long way to 
go on human rights.
    You heard we--the Administration made a statement in 
September talking about the rights of Egyptians to demonstrate 
peacefully and the obligation of the Egyptian authorities to 
protect demonstrators. This is something that is very important 
to the Administration and we talk about it.
    Mr. Malinowski. Well, thank you and I am glad that you did 
that. But I guess I am asking a more fundamental question, 
because I remember sitting in your chair a few years ago saying 
something along the lines of Egypt has a long way to go. And it 
seems to have an even longer way to go today, and yet here we 
have the same security relationship that we used to have. You 
know, any progress in Sinai over the last several years?
    And, once again, the question I would ask you, do their 
tactics help or hurt in the fight against what we say is our 
shared enemy?
    Secretary Schenker. Actually, on Sinai, they have made some 
progress. I think it is incremental. They have received 
training that is more narrowly tailored to that type of 
counterterrorism mission, but more importantly they have 
recognized and I think through our counsel that 
counterterrorism requires than just a military component. And I 
will actually let my colleague Mike Harvey talk about what we 
are doing and what the Egyptians are doing in the Sinai in that 
regard.
    Mr. Malinowski. Well, actually, hold on. I do not have that 
much time so.
    Secretary Schenker. OK.
    Mr. Malinowski. Because I have a different question I 
wanted to ask Mr. Harvey.
    But, look, I would just say the fundamental problem here is 
that, you know, even as the President pulls back from Syria, 
claims that it is just a bunch of sand and we need to get out 
of the Middle East and we cannot do these things forever, when 
the people we were helping, both Kurdish and Arab, are actually 
fighting and dying with us to fight terrorism, many of whom 
actually share our values, incredibly brave civil society 
activists who we are no longer supporting because we have 
pulled back so much of our programming there, and yet we 
continue to spend $1.3 billion of the taxpayers' money helping 
the Egyptian military put on military parades with their tanks, 
and that does not sit well with me.
    I have a very quick question with very little time left for 
you, Mr. Harvey, and it is about Yemen. When was the last time 
we, USAID or through the United Nations, provided a no-strike 
list to the Saudi military in terms of humanitarian locations, 
targets that we ask them not to hit in Yemen?
    Mr. Harvey. Congressman, I actually cannot answer that 
question, I do not know. But I do know that it is a constant 
point of discussion between our two governments.
    Mr. Malinowski. OK, so--but we have provided them with no-
strike lists?
    Mr. Harvey. We certainly have, both through AID and through 
our DOD colleagues.
    Mr. Malinowski. OK. I think that is a very important thing 
to confirm on the record, because we have, you know, not just 
broad concerns about human rights and targeting that we have 
shared with the Saudis that they have not always listened to, 
but specific locations and coordinates that they have hit that 
we have specifically given them as locations not to hit. I 
think that elevates this to the highest possible level of 
concern. Thank you. I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you very much, Mr. Chairman, and I want 
to apologize for not being here to hear the testimony. I had an 
honor flight at the World War II Memorial and that is obviously 
a priority. And we see those great American heroes. It used to 
be mostly World War II veterans like my father who would be a 
hundred, if he were still alive, next month, but now it is 
Korean War veterans and Vietnam War veterans and on and on.
    But it is one of those things, so I apologize for not being 
here a little earlier. And if I repeat some of the questions 
that were already answered, I apologize for that too. But I 
certainly appreciate the tougher line that this Administration 
has taken against Iran, for the most part, which under the free 
hand given by the JCPOA greatly expanded its influence in the 
region and I would like to focus on Iran's so-called land 
bridge to the Mediterranean.
    A critical goal of this quarter is for Iran to be able to 
threaten and potentially, ultimately, attack one of our most 
significant allies in the world and that is Israel. Could 
either one of the gentlemen here discuss the Administration's 
plans to curtail Iran's ability to move equipment or supplies 
or fighters into and through Syria and onto the Israeli border? 
So, thank you.
    Secretary Schenker. Thank you, Congressman. The land bridge 
is an issue of enormous concern to the Administration. Before 
the Turkish incursion into northern Syria, the positioning of 
our troops there as an ancillary benefit to being present and 
fighting ISIS there had limited Iran's ability in some way to 
do everything it wanted. We still have residual presence there 
that as long as we are able to provide security and stability 
and work with our SDF partners in these areas, which we 
continue to do, that may limit Iran's ability somewhat.
    But this is a priority and if we curtail our presence then 
it becomes, it would become more difficult to do so. As you 
know, the Israelis appear to be, they have hit Iranian targets 
in Syria for some time, attempted weapons transfers to Lebanon, 
this is something that is not a secret. So that in some way is 
also curtailing the efforts to establish this land bridge full-
time.
    Mr. Chabot. Thank you.
    Did you want to add anything?
    Mr. Harvey. Not specifically, Congressman, because we are a 
few steps to the side of that broader debate. But much of what 
USAID's sort of premises its development activities in this 
region on is that enabling these countries to stand on their 
own as fully sovereign countries that control their destiny, it 
better enables them to push back from the nefarious intent of 
both Iran, Russia, and others.
    Mr. Chabot. Thank you.
    Secretary Schenker. Yes. If I might add, I mean in some 
ways the weak link there has been Iraq more than Syria. As you 
know, Iran is storing ballistic missiles in Iraq. Iraq is not 
able to exert its sovereignty and push back. This is a real 
problem and will remain a problem for some time until Iraq can 
exert sovereignty.
    Mr. Chabot. Thank you very much. And I am sure that my next 
question has probably been mentioned and discussed prior to my 
being here. Obviously, the taking out al-Baghdadi was a huge 
victory. Just a horrific, horrible individual, the head of 
probably the most despicable organization that we have seen in 
a long, long time, so I want to commend the President and all 
those that worked with him in accomplishing this and obviously, 
principally, our men and women in uniform who, you know, took 
the action to end this horrible person's time on this earth.
    Could you discuss the Administration's plans moving forward 
to ensure that ISIS does not reestablish itself under, you 
know, and a new caliphate under, especially in Syria under a 
new leader? What are the Administration's plans at this point 
in ensuring that that does not happen?
    Secretary Schenker. Thank you, Congressman. That is a top 
priority for the Administration, the fight against ISIS, the 
prevention of the resurgence of ISIS 2.0. Contrary to what many 
people say, the Administration continues to work with our SDF 
partners on the ground in Syria. We have troops embedded with 
units and we continue to fight ISIS there. And that will be a 
key point of our presence going forward, whether in At Tanf or 
outside that area.
    So I would anticipate the counterterrorism mission will 
remain a very high priority for the indefinite future. This is 
as I think as Congressman Kinzinger said, it is a generational 
mission.
    Mr. Chabot. Very good. Thank you very much.
    My time has expired, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Chabot.
    Mr. Keating, you are recognized.
    Mr. Keating. Well, thank you.
    A question just following up on Iraq. It is a great 
concern. We have seen the demonstrations. We know the situation 
there in detail. We know that there was an order for 
nonemergency personnel in May to leave. That is going to run 
out next month. It seems from the budget there has been a cut 
in security funds. Does that represent what the future is 
there? It is such a critical area along with so many areas, but 
without a presence there it is going to be that much more 
difficult from the Stateside. Could you comment on what the 
prospects look like in this critical area right now that often 
gets overlooked?
    Secretary Schenker. Thank you. I share your concern. The 
safety and well-being of the diplomats in NEA is a top priority 
for me. It is my responsibility in many ways. And so, we are on 
ordered departure, we have been, and in 8 days or 7 days it 
will be 6 months. The security situation is such that this is 
what I believe is the new normal.
    That said, while we have not the height of the numbers that 
we had before, we have sufficient numbers on the ground to do 
our mission. And, in fact, even under ordered departure, this 
year, even so far, we have done more visits with the Iraqi, 
more engagements with Iraqi parliamentarians outside of the 
embassy compound than we did when we had our full complement 
the year before we went on ordered departure.
    So we are engaged diplomatically in a way that, you know, 
as we were before, even more so. Our military presence there, 
while the FMF has been zeroed out, part of this is burden-
sharing, but part of it also is that the military has CTEF 
funding where it can do train and equip and fund and work with 
the Iraqi military, notwithstanding the absence of FMF. So we 
remain engaged. We have numbers of troops there. We have a full 
diplomatic corps. I have been in Iraq maybe four times in the 
past 4 months, so this is a priority for us. If you want to 
roll back Iran in the region, this is the beachhead and we are 
there and we are not leaving.
    Mr. Keating. Yes. Well, thank you for your engagement in 
that. Just briefly, too, I mean there has been 14 million 
Yemenis on the verge of starvation, 85,000 have died of famine. 
Are we engaging with multilaterals? What are we doing there to 
try and help one of the worst humanitarian situations in the 
world?
    Mr. Harvey. I am sorry, Congressman. Did you say Yemen?
    Mr. Keating. Yemen, sorry. Oh, your microphone is on. Yes, 
your mike is--there.
    Mr. Harvey. Yemen is a remarkable challenge for all us. It 
is one of the largest humanitarian assistance programs 
anywhere. It is an extremely difficult place to do work. The de 
facto authorities in the north, the Houthis, make it very 
difficult and yet despite that we are extremely proud of the 
performance of our WFP colleagues in particular, but also 
UNICEF, WHO, and the panoply of American and international 
NGO's who have been working in Yemen.
    Mr. Keating. Thank you for your work. I just wanted to 
touch one other----
    Mr. Harvey. Yes.
    Mr. Keating [continuing]. Topic too. It is hard in 5 
minutes.
    But I have long felt that we could have a greater 
significance if we could better work with our EU allies on 
their development programs and sort of coordinate better what 
they are doing and what we are doing in critical areas of the 
world. Is there an opportunity to even have a multiplier effect 
beyond what we are doing now, because I think there is an 
enormous opportunity that way.
    Mr. Harvey. Congressman, I could not agree with you more. 
The EU is an interesting institution and I will leave it at 
that. What is in countries like Yemen where we are almost 
entirely dependent upon the United Nations, it is easier 
because that mechanism sort of forces joint pooled funding of 
activities. In countries where we have more bilateral 
programming there is more coordination than you might see.
    But they are, to be perfectly honest, challenging partners 
because their bureaucracy is even slower than ours. And 
whenever I am feeling frustrated about USAID's bureaucracy, I 
just look at the others and I feel a little better, but it is 
something that we are committed to. We have folks assigned in 
Brussels where we meet with our Brussels counterparts. But 
let's not forget that the German, the French, the British 
bilateral assistance programs, especially the British and the 
Germans, are huge around the world and those bilateral 
partnerships are extremely close. I mean, I just, having spent 
4 years dealing with Boko Haram in Nigeria, not successfully 
but that is another conversation, the partnership we had with 
the Brits and the Germans was as good as it could get.
    Mr. Keating. Good. I hope it is something that our 
committee and the subcommittee I chair can continue to work on. 
Thank you for your service. I yield back.
    Mr. Deutch. Thank you, Mr. Keating.
    Mr. Trone, you are recognized.
    Mr. Trone. Thank you, Mr. Chairman.
    Assistant Secretary Schenker, accountability for the murder 
of Jamal Khashoggi is vital to the broader U.S. interest in 
supporting the rights and freedoms of individuals, in 
particular freedom of the press. Does not failing to provide 
consequences for the Khashoggi assassination embolden the 
perpetrators, and what is the Administration doing to prevent 
this possibility?
    Secretary Schenker. Thank you, Congressman.
    Accountability, the Secretary has said, is critical in the 
murder of Jamal Khashoggi, getting to the bottom of it. I knew 
Khashoggi. It is something that matters to me, personally, as 
well. In 2018, the Administration sanctioned some eleven--17 
Saudis involved in the murder of Khashoggi with the Global 
Magnitsky sanctions. Right now, there is some 11 defendants in 
Saudi Arabia in the middle of a trial. I think both the defense 
and the prosecution have finished their cases and we are 
waiting on verdicts. I think the judicial process as we see it 
falls short of full accountability and we have indicated that 
to the Saudis. We are encouraging, nonetheless, a fair and 
transparent judicial process.
    Mr. Trone. It certainly seems like we are not getting that 
at the end of the day, but under crown prince, again, the Saudi 
Government has intensified its crackdown on dissidents, human 
right activists. In 1918, the repression was directed against 
the women, leading women's rights advocates who were seeking to 
end the male guardianship system that enables systematic abuse 
and repression. In May <bullet>18, authorities arrested a dozen 
prominent women's rights activists and accused several others 
of grave crimes, including treason, directly related to their 
activism. There is also reports that women were subjected to 
sexual harassment and torture.
    What is the State Department's view on Saudi Arabia's 
crackdown against these activists and dissidents?
    Secretary Schenker. Thank you. It is a concern of the 
Administration and the State Department some of these human 
rights allegations of abuse, but I would like to say that it is 
a bit of a mixed bag here. For example, the Saudi Government in 
the last 4 months lifted, ended the guardianship law, so now 
women can travel abroad without the permission of their 
children, for example, or a male guardian. Several of the women 
drivers have been released from jail. Walid Fitaihi, who I 
talked about before, a dual national U.S. citizen has now been 
charged and is on trial, but has been released from jail.
    You know, on other issues and they have been very positive 
as well, the Saudi Government is working to put the Yemeni 
Government back together by fostering negotiations between the 
Southern Transitional Council and the Hadi government. They are 
about to get an agreement on that. They have a deescalation 
with the Houthis that actually appears to be taking hold. At 
our encouragement, they gave, last month, $500 million to 
humanitarian assistance in Yemen.
    So let's say that Saudi, too, has some way to come or some 
room for improvement in terms of human rights, but they are 
working on it. They are putting together a committee on 
trafficking human persons to look into this more closely so 
they do not have some sort of bad rating next year from the 
assessment from the U.S. Government next year. I actually think 
they are making an effort and, in some places, succeeding.
    Mr. Trone. So it is an effort, but it looks like there is 
lots of room to go. We still have dissidents in jail. We still 
have lots of conversation about torture and abuse that they are 
suffering. We still have a crown prince that has not been held 
accountable. So, yes, progress is great, but we are not where 
we need to be and I think we need to continue to pressure and 
push for where we should be. We all know, morally, where we 
should be.
    Secretary Schenker. Well, thank you. This is a topic of 
ongoing discussion between us and the Saudis, but I think that 
while we should continue pushing, where credit is due, I think 
we should give them credit.
    Mr. Trone. Quickly to Tunisia, the legislative--the 
elections just happened in Tunisia. We would like to see them 
move in a good direction, but we cut foreign aid from 86 
million roughly in half. Do you have concerns about the message 
that sends?
    Secretary Schenker. Thank you. We think that the number is 
right on Tunisia, in two parts. By the way, we too think that 
the elections were a dramatic success and see this as really a 
positive development. I was just in Tunisia last month right 
before the elections. I met with the independent electoral 
commission. It is something that is a source, I think should be 
a source of pride for them and certainly for the region. It is 
unusual.
    We think the number is the right figure. The FMF, the 
INCLE, the money that we provide for the security forces is the 
same, basically, but some of the ESF has decreased. And if we 
need to, we can make that up with MEPI. They also get a great 
deal of money from Europeans, once again, burden-sharing. And 
all this money, there is an issue of absorptive capacity, so we 
think we are at the right amount.
    Mr. Trone. Thank you.
    Mr. Deutch. Thank you, Mr. Trone. I just had a couple of 
followups and then, Mr. Wilson, if he has any.
    Assistant Secretary Schenker, you said Iraq is a beachhead. 
I think you were referring to Iraq as a beachhead in 
confronting Iranian aggression; is that right?
    Secretary Schenker. Right.
    Mr. Deutch. November is the 6-month statutory deadline for 
extending the ordered departures and you have got to decide the 
future of U.S. Government presence in Iraq. Are there plans to 
strengthen the security of the U.S. embassy in Iraq to enable 
the return of U.S. personnel? Or tell me where that stands.
    Secretary Schenker. Yes. This has been something that I 
spend a great deal of time on, actually, you know, safety and 
security of diplomatic personnel in Iraq, in particular. I do 
not want to get into the details of how we came to it, 
discussions, we think security at the embassy is adequate. 
Actually, better than adequate.
    Mr. Deutch. Sufficient for the return of personnel, to 
enable U.S. personnel in the resumption of the----
    Secretary Schenker. To accomplish the mission.
    Mr. Deutch. Yes.
    Secretary Schenker. And we have got a number of diplomats 
that we think is appropriate and I can brief you about this in 
another setting.
    Mr. Deutch. OK.
    Secretary Schenker. But yes, we are committed to the 
mission.
    Mr. Deutch. Great. Right, I would like to do that if we can 
arrange that.
    And then, finally, also on the topic of Iran, this time in 
Syria. I think if I understood you, you said if we curtail our 
presence it would be more difficult to prevent, effectively, 
the land bridge that was asked about earlier. Did I understand 
you correctly and when you say if we curtail our presence, if 
we curtail our presence the way we are doing, if we curtail our 
presence beyond what we are doing, what were you referring to?
    Secretary Schenker. For basically beyond what we are doing. 
But as Ambassador Jeffrey said during, I believe during his 
testimony to you, our presence is a stabilizing force and to 
the degree that we are present it sets better conditions for 
the right things to happen in Syria.
    Mr. Deutch. So are you--so I will ask. So are you confident 
that the current strategy effectively prevents Iran from 
establishing that land bridge that we have, this committee in 
particular has worried so much about?
    Secretary Schenker. I think it complicates Iranian efforts 
to do so.
    Mr. Deutch. Does the Administration assess U.S. efforts to 
prevent the spread of Iranian influence in Syria and Iraq and 
Lebanon as successful?
    Secretary Schenker. Sir, it is a work in progress. In Iraq 
right now a lot of the intercommunal violence that you are 
seeing is based on, our belief is, Iranian overreach because 
Iran is so enmeshed in the society. Many Shiite there like 
everywhere throughout the region are Shiite nationalists and 
are pushing back on this.
    Mr. Deutch. OK. And so, let me just wrap up again on this 
issue of the land bridge. So there are, how many troops are in 
Tanf?
    Secretary Schenker. I am not at liberty to say.
    Mr. Deutch. But the withdrawal of troops from northern 
Syria, the withdrawal--I just want to make sure I understand.
    Secretary Schenker. There is still a residual U.S. presence 
that goes beyond At Tanf.
    Mr. Deutch. And you are confident that whatever that number 
is that residual presence is sufficient to prevent Iran from 
establishing a land bridge from Tehran through Baghdad and 
Damascus over to Beirut?
    Secretary Schenker. I think it plays a positive role on 
that front.
    Mr. Deutch. Well, I am sure some is better than none. I am 
just asking whether it is a sufficient number to prevent Iran 
from establishing that.
    Secretary Schenker. I really cannot comment.
    Mr. Deutch. OK. I appreciate it.
    Anything further, Mr. Wilson?
    Great. Well, thanks. I thank the witnesses and all the 
members for being here today. Thanks for your testimony, 
Assistant Secretary Schenker and Assistant Administrator 
Harvey. Members of the subcommittee may have some additional 
questions for you and we ask our witnesses to please respond to 
those questions in writing. I would ask my colleagues to submit 
those questions for the hearing record within five business 
days.
    And with that and, without objection, the subcommittee is 
adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	


                                [all]
</pre></body></html>
